                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A12030012                                                                        Page 1 of 1



                                                      Closeout

                 We conducted an inquiry into an allegation that a graduate student (Subject 1) copied a
         very large amount oftext into an NSF funded dissertation. 2 In the inquiry response, the Subject
         accepted responsibility for the copying, stating that, at the time he wrote the Dissertation, he was
         not aware that text describing previously conducted research required rewording. We referred an
         investigation of the co-PI's actions to the University. 3 The Subject's interview revealed that the
         preponderance of evidence supported the Subject's claim that he had been unsure whether text
         summarizing others' work, even if paraphrased, should be quoted. Because the University
         concluded that the text was also inadequately cited and that the Subject did not invest due
         diligence in rewording due to time pressures, it determined that the Subject had recklessly
         plagiarized; we agreed with its assessment.

                We recommended actions to protect the federal interest and the Deputy Director
         concurred with our recommendations.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
SENSITfVE                                                                              SENSITI\'E




       National Science Foundation
         Office of Inspector General




                                                                                                  '•,




                   Report of Investigation
                  Case Number A12030012
                      January 17, 2014


                          This Report of Investigation is provided to you
                                    FOR OFFICIAL USE ONLY.
   It contains protected personal information, the unauthorized disclosure of which may result in
   personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
   disclosed within NSF only to individuals who must have knowledge of its contents to
   facilitate NSF's assessment and resolution of this matter. This report may be disclosed
   outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S. C. §§ 552 &
   552a. Please take appropriate precautions handling this report of investigation.

                                                                               NSF OIG Form 22b (1/13)
SENSITIVE                                                                 SENSITIVE


                                   Executive Summary

Allegation:         Plagiarism in an NSF-funded dissertation.

OIG Inquiry:        OIG identified 5611ines oftext,24 figures, and 37 embedded references
                    copied from 40 sources into an NSF funded dissertation. The Subject stated
                    that he was not aware that text from other sources had to be reworded if it
                    was cited.

University          The University concluded that the Subject recklessly plagiarized and
Investigation and   determined that he must certify completion of RCR training and submit   a
Action:             corrected dissertation to         and to the University's library.

OIG's Assessment:   •   The Act: The Subject plagiarized 56 I lines and 37 embedded references
                        from 40 sources into 1 NSF-funded dissertation.
                    •   Intent: The Subject acted recklessly.
                    •   Significant Departure: The Subject's actions are a significant
                        departure from the accepted practices of the research community.
                    •   Standard of Proof: The preponderance of the evidence supports the
                        conclusion regarding the act and intent, and therefore a fmding of
                        research misconduct.         ·

OIG                 •   Send the Subject a letter of reprimand notifying him that NSF has made
Recommendation:         a fmding of research misconduct.
                    •   Require the Subject to certify compliance with the requirements
                        imposed by the University.
                    •   Require the Subject to certify completion of an RCR course.
                    •   Require the Subject to submit certifications for 2 years.
                    •   Require the Subject to submit assurances from his employer for
                        2 years.
                    •   Bar the Subject from participating as a reviewer, advisor, or consultant
                        for NSF for a period of2 years.




                                                                                             1
SENSITIVE                                                                          SENSITIVE


                                                    OIG's Inquiry
                                                              1      2
         Ourinqlliryirito plagiaiismin aJl.NSF-funded dissertation (the Dissertation) found 561
lines of text identical or substantially similar to that in 40 alleged sources,3 along with 37
                                                                             4
embedded references and 24 inadequately cited figures. In the Subject's response 5 to our inquiry
       6
letter, he'took responsibility for the copying, stating that, at the time he wrote the Dissertation,
he was not aware that text describing previously conducted research required rewording. He also
stated that his advisor had called him several months before the Subject received our inquiry
letter to request that the Subject revise the Dissertation. "[H]e told me that I can not just directly
copy the sentences ... and I need to revise them or put the double quotation marks on them if I
don't change the words." 7 The Subject attached revised versions ofhis Dissertation to his
response.
         Nevertheless, the original document contained an extremely large amount of plagiarism
and we determined there was enough substance to conduct a full investigation into the Subject's
 actions. We referred an investigation to the Subject's university8 (University). 9
         Because the Subject stated he had asked his advisor if a simple citation of the copied
figures was sufficient and his advisor had reportedly stated it was, we also sent the University a
 revised markup of the Dissertation that removed questions about the 24 abovementioned
 figures. 10                                                                         .


                                     The University's lnvestigationu,U

        Consistent with its policy, 13 the University appointed an investigation committee
(Committee) to investigate the allegation. The Committee interviewed one group and 4
individuals in connection with this investigation: a group of Chinese researchers including two
post-doctoral researchers, three Assistant Professors, and two Associate Professors; the Subject's
dissertation advisor 14 ; the Graduate Director 15 during the time the Subject was completing the
Dissertation; a member ofthe Subject's dissertation committee 16 ; and the Subject.




~entitled,·························
2

3
     Tab 1, Ph.D. thesis e n t i t l e d , · · · · · · · · · · · · · · · · · · ·
     Tab 2.
4. . . . . . . . . . . . . . . . . ..
5
   Tab 4.



8---·
6
   Tab 3.
 7
   Tab 4, Inquiry Response, p. 1.
 9
   Tab 6 contains the referral letter.
 10
    Tab 7, Revised Dissertation Markup.
 11
    Tab 8, The University's Investigation Report.
 12
    Tab 9, Attachments to the Inn·, "''""'t-u
 13
    See Tab 10, Procedure
 Dean declared a conflirt-nt-mtP.rP,ot
 14
 15

 I


                                                                                                         2
SENSITIVE                                                                       SENSITIVE


         During the Subject's interview, the Committee questioned him about his lmowledge of
quotation marks. The Subject claimed at the time of the interview that he now understands that
hehas to rewrite or place quotation marks around anything that cannot be restated. He claimed to
be still unsure whether paraphrased text should be in quotes because the ideas belong to another.
The Committee questioned the instances where the Subject copied text which itself summarized
others' work, 17 asking him whether he had even read the original and, if he had, why he had
chosen to use another's characterization in lieu of his own. 18 He stated that he had felt it more
important to cite the author of the ideas than the text. They also asked him about a 4.5 page
section of copied text in the Dissertation that came from source B, a short article. A Committee
Member estimated it amounted to 30 or 40 percent of the article 19 asking, "What were you
thinking when you took such a massive fraction of a paper ... ?"20 He answered that he had
previously thought the putpose of a literature review was to take all the h"Tiportant papers on a
topic and organize relevant parts of them so that the reader knows what has been previously
                                                               21
done, but he did not think rephrasing the text was important.

       In the interview with the group of Chinese researchers, the Committee found that
opinions varied as to whether citations alone were sufficient, but the answers suggested that it
was not an acceptable practice in China either, particularly among newly graduated researchers. 22
The Committee wrote, "Our Chinese consultants had difficulty understanding how a doctoral
student would not know that it is inappropriate to copy verbatim without at least a citation if not
quotes, indentation or paraphrasing."23

        In order to examine the Subject's assertion that, in China, placing one citation to a source.
at the beginning or end of a paragraph was sufficient attribution, the Committee reviewed several
instances of copied text in the Dissertation and found that regardless of custom, this manner of
citation was not the Subject's actual practice. Specifically, it found many instances where the
Subject did not provide a citation to copied text at all.

         Evidence surfaced during the Subject's interview that caused the Committee to rethink
his explanation regarding his ignorance of the need to adequately cite copied text. For example,
"          claimed that the double quotation mark did not exist in the Chinese lexicon. However,
all of the Chinese discussants knew of the double quotation mark and claimed that no reasonable
person would not know it, suggesting that            was trying to misguide the Committee. If he
was trying to misguide the Board, then we canreasonably expect he tried to misguide his thesis
committee by not using double quotations." 24 In addition, the Subject used quotation marks in
the Dissertation for proverbs. Further, the copied text lacked even adequate citation. 25 The
Committee stated that the Subject's actions were a result "of a combination of cluelessness,


17
   Tab9, Page 87, Interview Transcript. [Page 23 of PDF]
18
   Tab9, Page 88, Interview Transcript. [Page 23 of PDF]
19
   Tab9, Page 89, Interview Transcript. [Page 23 of PDF.]
20
   Tab9, Page 90, Interview Transcript [Page 24 of PDF.] .
21
   Tab9, Pages 91, 94, Interview Transcript. [Page 24-25 of PDF.]
22
   Tab 8, Report, p. 8. [Page 9 ofPDF.]
23
   Tab 8, Report, p. 12. [Page 13 ofPDF.]
24
   Tab 8, Report, p. 11. [Page 12 ofPDF.]
25
   Tab 8, Report, p. 11. [Page 12 ofPDF.]


                                                                                                   3
             SENSITIVE                                                                       SENSITIVE


      laziness and time pressure"26 and that "'[h]is advisor was not very effective in directing hlln
      concerning these issues."27                                                                     :
~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~!
                      By majority vote, the Committee determined that the Subject's actions were reckless and
              a significant departure from accepted practices of his research community, rising to the level of
              research misconduct. The Report did not state the standard of proof that the Committee used.
              However, the University's policy requires that a fmding of research misconduct "be proven by a
            . preponderance of the evidence. " 28 In terms of pattern, the report highlights a portion of the
              Subject's interview in which he stated it was unlikely that any of his prior joint publications
              contained plagiarism because so many people were concurrently revising it over a long period of
              time. The Committee concluded that the copying in the Dissertation did not have a strong impact
              on the research record because the Dissertation "is not likely to be looked at by many people, and
              because most of [the sections of copied text] appear in the background chapter."29 The
              Committee recommended that the Subject revise his Dissertation and "make every attempt to
              replace the revised Dissertation for the original one in the                          collection" 30
              as well as the one in the library of the University.

                     The Deciding Official31 accepted the Committee's report and recommendation and
             additionally required that the Subject certify in writing that he had completed RCR training. He
             indicated that the penalty for noncompliance would be the revocation of the Subject's Ph.D.
             degree. 32                                                               '


                     We noted that in the Subject's response to the Corn.mlttee's report, he objected to their
             characterization that he claimed in his interview that Chinese did not have quotation marks,
             stating that he simply meant that he had never noticed them before. 33 He also expressed that he
             did not mean to imply that it was Chinese practice to place a citation at the beginnings and ends
             of copied paragraphs; ratlier, he had meant to express that citing at the beginning of a sentence or
             end of a paragraph had been his own understanding of proper citation at the time. 34

                                                            OIG's Assessment

                    We assessed the Report for accuracy and completeness and whether the University
             followed reasonable procedures in its investigation.35 We found that the general procedures were
             reasonable, the rep9rt was reasonably complete, and the University provided an acceptable
             evidentiary record. We were therefore able to accept the University's investigation in lieu of
             conducting our own.


             26
                Tab   8, Report, p. 13. [Page 14 of PDF.]
             27
                Tab   8, Report, p. 13. [Page 14 of PDF.]
             28
                Tab   10, Policy, p. 3. [Page 3 ofPDF.]
             29
                Tab   8, Report, p. 12. [Page 13 of PDF.]



             31·················
             30
                Tab   8, Report, p. 13. [Page 14 of PDF.]
              32
                 Tab 9, Letter to Subject, p, 1.
              33
                 Tab 8, Report, Attachment A, p. 2. [Page 16 of PDF.]
              34
                 Tab 8, Report, Attachment A, p. 1. [Page 15 ofPDF.]
              35
                 45 C.F.R. §689.9(a).


                                                                                                                 4
SENSITIVE                                                                      SENSITIVE


        A finding of misconduct requires that: (1) there be a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence.36 ·

                                                 The Act

        The SubjeCt admitted his responsibility for the 561 lines of text copied from 40 sources
into his NSF-funded Dissertation. The. Subject's unattributed copying is consistent with NSF's
definition of plagiarism.37



        The Committee found that the Subject acted recklessly. 38 We concur with the
Committee's assessment. The Committee stated, "The use of direct quotes is relatively
uncommon in scientific papers in his field. However, paraphrasing is expected."39 This lends
credence to a conclusion that, given the Subject's lack of experience in single-author academic
writing and possible confusion related to an educational background outside of the United. States,
the Subject was not fully knowledgeable of his field's expectations with regard to paraphrasing,
or may not have known what qualified as a sufficient paraphrase. Further, as the Committee's
report states, the Subject "admitted that he was in a hurry and implicitly reckless in putting his
dissertation together." 40                                        ·


                                             Standard o[Proof

        The preponderance of the evidence supports that the Subject recklessly plagiarized and
that his actions were a significant departure from the accepted practices of the relevant research
community. We therefore conclude that the Subject's actions constitute research misconduct.

                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattem; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 41



36
   45 C.F.R. 689.2(c).
37
   45 C.F.R. 689 .l (a)(3)
38
   Tab 8, Report, p. 12. [Page 13 of PDF.]
39
   Tab 8, Report, p. 11. [Page 12 of PDF.]
40
   Tab 8, Report, p. 12. [Page 13 of PDF.]
41
   45 C.F.R. 689.3(b).


                                                                                                     5
SENSITIVE                                                                    SENSITIVE


                                                    Seriousness

           Tlie amount of text copieaby the Suoject is a great oeall11ore tfian in oTher cases our
office has investigated; however, the copying constitutes 20-30% of the Dissertation, comparable
to 2-3 pages of an NSF Proposal. At the same time, some of the copying is egregious, such as
pasting approximately half of Source B, a journal article, directly into his Dissertation. A
dissertation is partially intended to represent proof of a scholar's ability to synthesize prior
research relevant to the project at hand, and the Ph.D. degree hinges significantly on the
completion of the dissertation. In addition, the funding he received renders his work
representative ofNSF's endeavors, threatening the agency's reputation. We therefore consider
his extensive plagiarism moderately serious.

                                Pattern and Impact on the Research Record

        The Subject has no other sole-authored work and there appears to be no pattern of
plagiarism. We also agree with the Committee that the Dissertation may be somewhat less likely
to have been read by others than a journal article, 42 thereby reducing impact on the research
record.

                                                Mitigating Factors

       Although the amount of plagiarism in the case is extensive, we do consider two
mitigating factors. First, in our communications with the Subject, it became clear he had a
limited understanding of plagiarism based on his previous academic experience. Second, we
agree strongly with the committee that the Subject received inadequate guidance from his mentor
regarding the need to adequately paraphrase and/or cite material used from other authors.

                                                 Recommendations

         Based on the evidence, OIG recommends that NSF:
         • Send the Subject a letter of reprimand notifying him that NSF has made a finding of
            research misconduct. 43                 ·

         • Require the Subject to certify completion of the requirement imposed by the
            University that he submit a corrected and approved dissertation to the
                                               repository and to the University's library.
         • Require the Subject to certify to his completion of a responsible conduct of research
            training program and provide documentation of the program's content within 1 year
                              44
            ofNSF's fmding. The instruction should be in an interactive format (e.g., an
            instructor-led course) and specifically include instruction on plagiarism.




42
   Tab 8, Report, p. 12. [Page 13 of PDF.]
43
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
44
   This action is s·imilar to Group I actions 45 C.F.R. 689.3(a)(l).



                                                                                                     6
SENSITIVE                                                                                     SENSITIVE


For a period of2 years as ofthe date ofNSF's finding:
       •. Bar the Subject from participating as a peer·reviewer, advisor, or consultant for
           NSF. 45
       • Require for each document (proposal, report, etc.) to which the Subject contributes
           for submission to NSF (directly or through his institution),
               o the Subject to submit a contemporaneous certification to the AlGI that the
                   document does not contain plagiarism, falsification, or fabrication. 46
               o the Subject to submit contemporaneous assurances from a responsible official
                   of his] employer to the AlGI that the document does not contain plagiarism,
                   falsification, or fabrication. 47 , 48    ·




     The Subject reviewed a copy of the draft version of the ROJ and did not have any
                      ~                   ..                              .
comments to add.    .                     ·




45
    A Group III action 45 C.F.R. 689.3(a)(3)(ii).
46
    This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
47
    A Group I action 45 C.F.R. 689.3(a)(l)(iii).
4
  & All certification should be sent to the Assistant Inspector General for Investigations at NSF/OIG.
49
    Tab 11, Subject Response.


                                                                                                          7
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




   OFFICE OF THE
  DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear-:

During your graduate career at                              NSF provided funding in support of
your dissertation. As documented in the attached Investigative Report, NSF's Office of
Inspector General (OIG) concluded that your dissertation contained plagiarized material.

Research Misconduct and Proposed Sanctions

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 689.l(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
             community;
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

Your NSF funded dissertation included substantial copied material: 561 lines of text, 24 figures,
and 37 embedded references copied from 40 sources. Your inclusion of copied material in your
dissertation constitutes plagiarism and meets the applicable definition of "research misconduct"
set forth in NSF's regulations. Pursuant to NSF's regulations, the Foundation must also
determine whether to make a finding of misconduct based on a preponderance of the evidence.
45 CFR 689.2(c). After reviewing the Investigative Report, in particular the amount of copied
                                                                                                 Page 2
material and the admitted haste with which you undertook your work, NSF has determined that,
based on a preponderance of the evidence, you acted recklessly and that your actions constituted
a significant departure from accepted practices of the relevant research community. I am,
consequently, issuing a finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a fmding of misconduct. 45 CPR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CPR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews ofrequests for funding; and requiring correctionto the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct as well as other relevant circumstances. 45 CFR 689.3(b).

After ·assessing the relevant facts and circumstances of this case and NSF's regulations, I am
taking the following actions:

    • Within one year of the date of this notice, you must complete a responsible conduct of
      research training program, for which the instruction should be an interactive format (e.g.,
      an instructor-led course) and which specifically includes plagiarism. You must provide
      documentation of the program's content and proof of its completion to the OIG;
    • You are required to certify completion ofthe requirement imposed by
      - t h a t you submit a corrected and approved dissertation to the
                    repository and the                            library; and
    • For a period of two years from the date of this notice, you are required to submit 1)
      assurances from a responsible official of your employer to the AlGI that any document
      you submit to NSF, directly or through your institution, does not contain plagiarized,
      falsified or fabricated material, and 2) a contemporaneous certification to the AlGI that
      any document you submit to NSF, directly or through your institution, does not contain
      plagiarism, falsification, or fabrication.

All certifications and assura...11ces should be submitted i..'1 writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 2223 0.


Procedures Governing Appeals
Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
                                                                                                   Page 3
          finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
          addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
~-----Arlington, V rrginia 222TO~ --rnve a.o not tece1ve your appeal wrtl:Imtlle JO-=-day perioa0]1e
          decision on the fmding of research misconduct will become fmal.
                                                          v

               For your information, we are attaching a copy of the   UIJIJH\.,auJL'-'

               any questions about the foregoing, please contact




                                                                      Sincerely,



                                                                      Cora B. Marrett
                                                                      Deputy Director



               Enclosures:
               Investigative Report
               45 CFR Part 689
